Report No. D2007-043       January 10, 2007




Controls Over the Army, Navy, and Air Force
          Purchase Card Programs
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
A/OPC                 Agency/Organization Program Coordinator
AAA                   Army Audit Agency
AFAA                  Air Force Audit Agency
AFB                   Air Force Base
AFI                   Air Force Instruction
ARB                   Air Reserve Base
GAO                   Government Accountability Office
GPC                   Government Purchase Card
IG                    Inspector General
SOP                   Standing Operating Procedure
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                        January 10,2007
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               DIRECTOR, PURCHASE CARD JOINT PROGRAM
                 MANAGEMENT OFFICE
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on Controls Over the Army, Navy, and Air Force Purchase Card
         Programs (Report No. D-2007-043)

       We are providing this report review and comment. The Director, Army Purchase
Card Program did not respond to the draft report; however, we considered comments
from the Director of the Department of the Navy, Consolidated Card Program
Management Division and the Director, Air Force Purchase Card Program Management
Office when preparing the final report.
      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request the Director, Army Purchase Card Program Management Office provide
comments to Recommendations A. 1.a., A. 1.b., B. 1.a., B. 1.b., and B. 1.c.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudACM@dodia.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET). We appreciate the courtesies extended to the staff. Questions should be
directed to Ms. Deborah Carros at (703) 604-9217 (DSN 664-9217). See Appendix C for
the report distribution. The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                           Richard B. Jol iffe
                                     Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2007-043                                                    January 10, 2007
   (Project No. D2005-D000CK-0202.000)

                 Controls Over the Army, Navy, and Air Force
                           Purchase Card Programs

                                 Executive Summary

Who Should Read This Report and Why? Army, Navy, and Air Force purchase card
program managers, certifying officials, approving officials, alternate approving officials,
and cardholders responsible for implementing and overseeing purchase card processes
should read this report because it identifies problems with internal controls.

Background. We performed this audit in response to a request from the DoD Purchase
Card Joint Program Management Office. The DoD Purchase Card Joint Program
Management Office requested that we review closed accounts of purchase cards with
credit balances to determine whether balances were refunded. As of May 2, 2005,
5 Army and Air Force installations had 88 closed accounts of purchase cards with credit
balances valued at $51,082. As of June 15, 2005, 3 Navy installations had 54 closed
accounts of purchase cards with credit balances valued at $90,847.

We also reviewed the convenience check component of the Government purchase card
program because of the known risks associated with convenience checks. Thirty-six
check writers issued 1,694 convenience checks, valued at $993,252, from
October 1, 2003, through April 30, 2005, at 7 Army, Navy, and Air Force installations.

Results. Purchase card program officials failed to establish effective controls over the
accounts of closed purchase cards with credit balances at three Army installations,
three Navy installations, and two Air Force installations. For the installations reviewed,
two Army, three Navy, and two Air Force agency/organization program coordinators did
not monitor closed accounts that had credit balances. Also, Army, Navy, and Air Force
purchase card program officials did not retain cardholder documentation for closed
accounts. As a result, credit balances on closed accounts of purchase cards may not be
properly identified, refunded, and available for Government use (finding A).

Controls over the use of convenience checks were weak and program officials did not
establish an effective oversight program at Army, Navy, and Air Force installations
visited. Specifically, Army, Navy, and Air Force officials did not issue delegation of
authority letters to convenience check writers, review the program, or conduct
unannounced audits of convenience check accounts. Further, Army and Air Force
approving officials did not retain documentation when checks were used. As a result,
convenience checks are vulnerable to unnecessary risk and misuse (finding B).

Controls over the purchase card programs at Air Force installations visited were
inadequate, and program oversight was weak. In addition, controls over purchase card
program training were weak at two of the three Navy installations visited. Specifically,
Navy and Air Force cardholders and approving officials did not receive required initial
purchase card training or the refresher purchase card training; Air Force
agency/organization program coordinators and approving officials had more than the
standard span of control for purchase card accounts; and Air Force agency/organization
program coordinators were purchase cardholders and convenience check writers. Unless
purchase card program management officials strengthen internal controls and program
oversight, the Navy and Air Force cannot ensure continuous program improvement and
risk mitigation necessary to prevent fraud, waste, or mismanagement (finding C).

The Director, Army Purchase Card Program Management Office; the Director of the
Department of the Navy, Consolidated Card Program Management Division; and the
Director, Air Force Purchase Card Program Management Office, must establish controls
to ensure proper management and use of the purchase card program in accordance with
DoD and Component guidance. See the Findings section of the report for the detailed
recommendations.

Management Comments. The Chief of Staff/Policy for Deputy Assistant Secretary of
Navy (Acquisition Management) concurred with the findings and recommendations and
stated the Department of Navy, Consolidated Card Program Management Division
established policy and procedures in Naval Supply Instruction 4200.99, dated October
13, 2006, which implements recommendations A.2.a., A.2.b., B.2.a, B.2.b, and C.1. In
addition, the Chief of Staff/Policy for Deputy Assistant Secretary of Navy (Acquisition
Management) issued a Purchase Card Administrative Notice on July 21, 2006,
implementing recommendation A.2.c.

The Department Assistant Secretary (Contracting)/Assistant Secretary (Acquisition)
concurred with the findings and recommendations and stated the Air Force Government
Purchase Card Program Management will establish policies, procedures, and controls to
implement all recommendations.

The Director, Army Purchase Card Management Program did not respond to the draft
report issued on September 19, 2006. We request the Director, Army Purchase Card
Management Program provide comments to Recommendations A.1.a., A.1.b., B.1.a.,
B.1.b., and B.1.c.




                                           ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    2

Review of Internal Controls                                                   2

Findings
     A. Accounts of Closed Purchase Cards With Credit Balances                3
     B. Convenience Checks                                                   13
     C. Purchase Card Program Controls                                       21

Appendixes
     A. Scope and Methodology                                                25
     B. Prior Coverage                                                       27
     C. Report Distribution                                                  29


Management Comments
     Under Secretary of Defense for Acquisition, Logistics, and Technology   31
     Department of the Navy                                                  32
     Department of the Air Force                                             39
Background
    We conducted this audit in response to a request from the DoD Purchase Card
    Joint Program Management Office. The DoD Purchase Card Joint Program
    Management Office requested that we review the accounts of closed purchase
    cards with credit balances to determine whether balances were refunded. We also
    reviewed the convenience check component of the Government purchase card
    program because of the known risks associated with convenience checks.

    Government Purchase Card Programs. Federal Government purchase card
    programs, which have been in existence throughout the Government since 1989,
    were established to streamline acquisition processes by providing a low-cost,
    efficient method for obtaining goods and services directly from vendors. The
    Government Purchase Card (GPC) is used when making purchases or paying for
    supplies, services, or construction in accordance with the Federal Acquisition
    Regulation. Federal Acquisition Regulation Subpart 13.2 states that the GPC is
    the preferred method when purchasing and paying for micro-purchases. When
    the purchase card is not feasible, convenience checks provide an alternative. A
    “micro-purchase” is an acquisition of supplies or services using simplified
    acquisition procedures, the aggregate amount of which does not exceed the
    micro-purchase threshold of $2,500, except for construction where the threshold
    is $2,000.

    With the establishment of the General Services Administration SmartPay Program
    in 1998, contracts were awarded to five service providers: Bank of America, Bank
    One, Citibank, Mellon Bank, and U.S. Bank. Federal Government departments
    and agencies were to choose the charge card service provider with capabilities
    meeting agency requirements. The Army and Air Force purchase card programs
    operate under a Government General Services Administration contract with
    U.S. Bank; the Navy purchase card program operates under a Government
    General Services Administration contract with Citibank. For FY 2005, Army
    purchase card transactions totaled 4.5 million, valued at $3.5 billion; Navy
    purchase card transactions totaled 2.18 million, valued at $1.5 billion; and Air
    Force purchase card transactions totaled 2.8 million, valued at $1.6 billion.

    DoD Program Participants and Responsibilities. The Under Secretary of
    Defense for Acquisition, Technology, and Logistics, in cooperation with the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer, and the DoD
    Purchase Card Joint Program Management Office are responsible for the DoD
    purchase card program. Authority is further delegated to contracting offices at
    installations to dedicate adequate resources for the GPC program. However,
    agency/organization program coordinators (A/OPCs) manage the daily operations
    of the GPC program. Furthermore, A/OPCs, approving officials, and cardholders
    at installations must collectively provide reasonable assurance that purchase card
    transactions are appropriate and meet a valid Government need.




                                        1
Objectives
     The overall audit objective was to determine whether controls over the Army,
     Navy, and Air Force purchase card programs were effective and appropriate.
     Specifically, we reviewed the accounts of closed purchase cards with credit
     balances and the use of convenience checks at selected Army, Navy, and Air
     Force locations. We also reviewed the managers’ internal controls as they related
     to the overall objective. See Appendix A for a discussion of the scope and
     methodology and Appendix B for prior coverage related to the audit objectives.



Review of Internal Controls
     We identified internal control weaknesses for Army, Navy, and Air Force
     purchase card programs as defined by DoD Instruction 5010.40, “Managers’
     Internal Control (MIC) Program Procedures,” January 4, 2006. Although we
     identified management control weaknesses at each site we visited, we did not
     consider them material as defined by DoD Instruction 5010.40. Army, Navy, and
     Air Force purchase card program officials at installations visited failed to
     establish effective controls over closed accounts of purchase cards with credit
     balances. In addition, controls over convenience check use were weak, and
     program officials did not establish effective program oversight. Implementing
     our recommendations should correct the identified weaknesses.




                                         2
                   A. Accounts of Closed Purchase Cards
                      With Credit Balances
                   Purchase card program officials failed to establish effective controls over
                   the accounts of closed purchase cards with credit balances at three Army
                   installations, three Navy installations, and two Air Force installations. At
                   the installations reviewed,

                        •   two Army, three Navy, and two Air Force A/OPCs did not monitor
                            closed accounts that had credit balances; and

                        •   Army, Navy, and Air Force purchase card program officials did
                            not always retain cardholder documentation for closed accounts.
                   Monitoring and retention did not occur because Army, Navy, and Air
                   Force guidance for managing the purchase card program does not require
                   that officials monitor the accounts of closed purchase cards with credit
                   balances. In addition, Army and Air Force officials failed to implement
                   existing policies and procedures for retaining cardholder documentation;
                   and Navy guidance for managing the purchase card program does not
                   require that officials retain cardholder documentation on closed accounts.

                   As a result, credit balances on closed accounts of purchase cards may not
                   be properly identified, refunded, and available for Government use.
                   Furthermore, unless purchase card controls are strengthened and
                   management engages in more proactive oversight, the Army, Navy, and
                   Air Force cannot continuously improve the program or mitigate risk of
                   fraud, waste, or mismanagement.


Purchase Card Program Guidance
           Department of Army, “Government Purchase Card Standing Operating
           Procedure,” July 31, 2002. 1 The Army Standing Operating Procedure (SOP)
           defines the requirements for establishing, maintaining, and operating the purchase
           card program. The Army SOP requires that the chiefs of contracting offices issue
           delegation of authority letters granting purchase authority for cardholders and
           convenience check writers. The delegation of authority must specify the single
           and monthly purchase limitations unique to each cardholder or check writer. The
           A/OPCs at the installation level manage the daily operations of the purchase card
           program. A/OPCs develop and implement local procedures, provide initial and
           biannual refresher training to cardholders and approving officials, issue
           delegation of authority letters to cardholders, conduct annual reviews of all
           approving official accounts, review convenience check transactions, and maintain
           an appropriate span of control over approving official and cardholder accounts.
1
    The draft Army Regulation 715-xx, “Government Purchase Card Program,” was issued December 6,
    2005, to supersede the Army Standing Operating Procedure; however, the scope of our audit was based
    on data prior to the issuance of this revision.



                                                     3
           The Army SOP limits the amounts of convenience checks to no more than $2,500
           per check. In addition, checking accounts must be audited quarterly in
           accordance with Army Federal Acquisition Regulation Supplement 5113.270.
           The Army SOP states that certified billing statements and supporting
           documentation will be retained for 6 years and 3 months after final payment. The
           Army SOP further states that the approving official must maintain these records
           until they are transferred to a records holding area.

           Department of the Navy eBusiness Operations Office Instruction 4200.1A,
           “Department of Navy Policies and Procedures for the Operation and
           Management of the Government Commercial Purchase Card Program,”
           September 2, 2003. Department of the Navy eBusiness Operations Office
           Instruction 4200.1A (the Navy Instruction) provides guidance on policies for the
           GPC program. The Navy Instruction states that the A/OPC is responsible for
           daily program oversight, ensuring that cardholders and approving officials are
           properly appointed and trained, as well as maintaining training documentation
           and delegation of authority letters the Commanding Officer issues to cardholders
           and approving officials. The A/OPC also should review the transactions during
           monthly reviews of purchase cards. The Navy Instruction further states that an
           officer or DoD civilian independent of the office that maintains the convenience
           check account must perform unannounced audits of the accounts annually.

           Air Force Instruction 64-117, “Air Force Government-Wide Purchase
           Card (GPC) Program,” December 6, 2002. 2 Air Force
           Instruction (AFI) 64-117 establishes responsibilities and procedures for the GPC
           and convenience checks. The instruction states that installation commanders or
           their equivalents are responsible for the operation of the GPC program on their
           installations. It further states that the Contracting Squadron Commander or the
           chief of the contracting office designates at least one primary and one alternate
           A/OPC who will manage the installation GPC program. The A/OPC issues
           delegation of authority letters, provides initial training and annual refresher
           training to cardholders and approving officials, and performs annual reviews of
           the account of each approving official. In addition to those responsibilities, the
           A/OPC should perform an annual review of convenience check accounts under an
           approving official. The approving official must also perform quarterly reviews of
           each convenience check account. The instruction further states that approving
           officials must maintain the originals of supporting documentation for an account
           when the cardholder transfers, is reassigned, retires, or when the account is
           closed.




2
    Although Air Force Instruction 64-117 was revised in January 2006, the scope of our audit was based on
    data before the instruction was revised.



                                                      4
Review of Closed Purchase Card Accounts
           We reviewed the accounts of 142 closed purchase cards 3 with credit balances,
           valued at $141,929, at 8 Army, Navy, and Air Force installations. Army and Air
           Force accounts were closed as of May 2, 2005, and Navy accounts were closed as
           of June 15, 2005, with credit balances and represented 100 percent of closed
           accounts with credit balances at each installation.

           U.S. Bank, which issues purchase cards to the Army and Air Force, has an
           internal policy to refund credit balances when an account has no activity for
           6 months. Citibank, which issues purchase cards to the Navy, does not have such
           a policy and therefore does not automatically refund credit balances. The
           Citibank policy requires that the A/OPCs request a refund for credits on any
           closed Navy purchase card accounts.

           Army Closed Purchase Card Accounts. For the Army, we reviewed 69 closed
           accounts of purchase cards with credit balances, valued at $44,101, at
           3 installations. Specifically,

               •    Fort Carson, Colorado, had 26 closed accounts of purchase cards with
                    credit balances, valued at $8,537;

               •    Fort McPherson, Georgia, had 13 closed accounts of purchase cards with
                    credit balances, valued at $34,119; and

               •    Fort Stewart, Georgia, had 30 closed accounts of purchase cards with
                    credit balances, valued at $1,445.

           U.S. Bank refunded credit balances for closed accounts or transferred credit
           balances to a new account of purchase cards reviewed at Fort Carson, Fort
           McPherson, and Fort Stewart. Specifically, all credit balances on the closed
           accounts reviewed at Fort Carson and Fort Stewart were refunded. The credit
           balances on 11 of the 13 closed accounts reviewed at Fort McPherson were
           refunded; new approving official accounts were established for the remaining
           2 closed accounts, and any individual credit balances were transferred to the
           newly established accounts.

           Navy Closed Purchase Card Accounts. For the Navy, we reviewed 54 closed
           accounts of purchase cards with credit balances, valued at $90,847, at
           3 installations. Specifically,

               •    Commander Navy Region Northwest, Washington, had 19 closed accounts
                    of purchase cards with credit balances, valued at $53,480;

               •    Naval District Washington, District of Columbia, had 24 closed accounts
                    of purchase cards with credit balances, valued at $19,875; and

3
    The closed accounts of purchase cards with credit balances are actually approving official accounts. We
    reviewed some cardholder accounts under the closed approving official accounts with credit balances to
    verify the amount of the credit balances.



                                                      5
       •   Naval Medical Center San Diego, California, had 11 closed accounts of
           purchase cards with credit balances, valued at $17,492.

    As a result of our audit, the A/OPCs at Commander Navy Region Northwest and
    Naval Medical Center San Diego requested and received refunds for each of the
    credit balances on the closed accounts of purchase cards we reviewed. However,
    credit balances remain on those closed accounts of purchase cards reviewed at
    Naval District Washington, and as of July 2006 the A/OPC had not requested a
    refund from Citibank.

    Air Force Closed Purchase Card Accounts. For the Air Force, we reviewed
    19 closed accounts of purchase cards with credit balances, valued at $6,981, at
    2 installations. Specifically,

       •   March Air Reserve Base (ARB), California, had 13 closed accounts of
           purchase cards with credit balances, valued at $3,100, for which the Air
           Force Reserve Command was responsible; and

       •   Moody Air Force Base (AFB), Georgia, had 6 closed accounts of purchase
           cards with credit balances, valued at $3,881, for which the Air Force
           Special Operations Command (formerly Air Combat Command) was
           responsible.

    U.S. Bank refunded credit balances on the closed accounts of purchase cards
    reviewed at March ARB and Moody AFB. Those balances were refunded in
    accordance with U.S. Bank’s policy.


Monitoring Accounts of Closed Purchase Cards With Credit
 Balances
    The A/OPCs at two Army installations, three Navy installations, and two Air
    Force installations did not monitor closed accounts with credit balances. A/OPCs
    did not monitor accounts because Army, Navy, and Air Force guidance for
    managing purchase card programs does not discuss monitoring closed accounts of
    purchase cards with credit balances.
    The A/OPC at Fort Stewart stated that she established procedures for
    monitoring Army installations closed accounts with credit balances as a result of
    our audit.

    Army Account Monitoring. The A/OPCs at Fort McPherson and Fort Stewart
    did not monitor closed accounts with credit balances. However, neither the Army
    SOP nor the draft Army Regulation 715-xx, “Government Purchase Card
    Program,” which superseded the Army SOP, assign responsibility for monitoring
    credit balances on closed accounts.




                                         6
                   Fort McPherson. The Fort McPherson A/OPC stated that the Customer
           Automation and Reporting Environment 4 system shows the balance of the activity
           for individual transactions posted during the most recent billing cycle but does not
           show the balance on the account. As a result, closed accounts do not show a
           credit balance if no activity was posted during the billing cycle. The Fort
           McPherson A/OPC stated that no guidance for monitoring closed accounts
           existed, but she did not check for credit balances because she believed monitoring
           accounts was the responsibility of approving officials.

                   Fort Stewart. As a result of our audit, the A/OPC at Fort Stewart
           initiated actions to monitor closed accounts with credit balances. The A/OPC
           stated that she periodically runs a report in the Customer Automation and
           Reporting Environment system to review for credit balances on both open and
           closed accounts. The Fort Stewart A/OPC stated that for closed accounts with a
           credit balance greater than $1,000, she requests a refund from U.S. Bank; for
           credit balances less than $1,000, she waits until the bank provides a refund.

                   Fort Carson. The Fort Carson A/OPC monitored closed accounts and
           stated that she receives quarterly refunds from U.S. Bank for closed accounts with
           outstanding credit balances. The A/OPC stated that she runs a monthly
           transaction summary report to verify credit balances.

           Navy Account Monitoring. The A/OPCs at Commander Navy Region
           Northwest, Naval District Washington, and Naval Medical Center San Diego did
           not monitor closed accounts with credit balances. The Navy Instruction states
           that A/OPCs may close accounts after an approving official verifies that all
           outstanding transactions and payments clear the account. However, the Navy
           Instruction does not require that A/OPCs monitor these accounts after they are
           closed to ensure no additional transactions, such as rebates and refunds, are
           posted to the account. The A/OPCs at Commander Navy Region Northwest,
           Naval District Washington, and Naval Medical Center San Diego stated that they
           did not monitor the accounts after closure.

           Air Force Account Monitoring. The A/OPCs at March ARB and Moody AFB
           did not monitor closed accounts under their purview. AFI 64-117 states that the
           approving official may request that an A/OPC cancel an account only after all
           outstanding transactions (that is, charges and credits) clear the bank. Transactions
           can continue to post to an account in the form of rebates and refunds after an
           account is closed. AFI 64-117 does not discuss monitoring accounts after closure
           so no additional activity requiring a refund to the Government occurs. The
           March ARB A/OPC was unaware that credit balances on the closed accounts of
           purchase cards we reviewed actually existed and did not consider monitoring
           accounts after they are closed because the guidance did not address this matter.
           The Moody AFB A/OPC was also unaware of the credit balances on the closed
           accounts of purchase cards we reviewed and stated that she did not realize she
           was still responsible for those accounts when Moody AFB changed Major
           Command from the Air Combat Command to the Air Force Special Operations
           Command.

4
    The Customer Automation and Reporting Environment system is the U.S. Bank electronic access system
    that allows A/OPCs and approving officials to review transactions.



                                                    7
    Although existing guidance does not discuss monitoring closed accounts, Army,
    Navy, and Air Force A/OPCs are still responsible for managing the daily
    activities of the purchase card program and should have managed the issues with
    credit balances on closed accounts when the issues arose. If this issue is not
    resolved, future credit balances on closed accounts may not be properly
    identified, refunded, and made available to the Government.


Retaining Cardholder Documentation
    Purchase card program officials at three Army installations, two Navy
    installations, and two Air Force installations did not retain cardholder
    documentation on closed accounts. The severity of that condition varied by site
    as discussed in the following sections. The variations occurred because Army
    and Air Force officials were not consistent when retaining cardholder
    documentation, and Navy guidance for managing the purchase card program does
    not discuss retaining cardholder documentation on closed accounts.

    Army Retention. Purchase card program officials at Fort Carson, Fort
    McPherson, and Fort Stewart did not always retain cardholder documentation on
    closed accounts. The Army SOP states that officials must retain certified billing
    statements and supporting documentation for 6 years and 3 months after final
    payment. The Army SOP further states that the approving official must maintain
    records until they are transferred to a records holding area. However, the Army
    SOP does not discuss who should maintain the records for closed approving
    official accounts. For the three Army installations reviewed, we requested billing
    statements for the closed accounts of 69 purchase cards for the 12 months prior to
    the account being closed to validate the accuracy of the credit balances. We also
    requested supporting documentation for selected closed accounts based on
    questionable transactions we identified from the available billing statements.

           Fort Carson Cardholder Documentation. Fort Carson purchase card
    program officials could not locate billing statements for 12 of the 26 closed
    accounts reviewed, and supporting documentation for any transactions for 2 of the
    6 closed accounts selected for further review. The A/OPC at Fort Carson stated
    that when she ran transaction reports in the Customer Automation and Reporting
    Environment system for each of the closed accounts, she received a “no output”
    message for 12 of the 26 accounts. She stated that she receives a hard copy of
    these detail transaction reports from U.S. Bank each month, but does not retain
    the reports after review. Approving officials could not locate supporting
    documentation for any transactions for 2 of the 6 selected closed accounts
    because the cardholders were deployed. For 4 of the 6 selected closed accounts,
    approving officials provided supporting documentation for selected transactions,
    and we did not identify any problems with the documentation.

          Fort McPherson Cardholder Documentation. The A/OPC at Fort
    McPherson provided transaction reports for each of the 13 closed accounts;
    however, purchase card program officials could not locate supporting
    documentation for 1 of the 8 closed accounts selected for further review. The
    A/OPC at Fort McPherson stated that the approving official was no longer


                                        8
stationed at Fort McPherson and that no one knew where the documentation was
located.

        Fort Stewart Cardholder Documentation. The A/OPC at Fort Stewart
provided transaction reports for each of the 30 closed accounts; however,
purchase card program officials could not locate supporting documentation for
8 of the 12 closed accounts selected for further review. For 7 of the 12 selected
accounts, the cardholders were deployed, and the approving officials did not
know where the documentation was located. For the one cardholder account, the
A/OPC at Fort Stewart stated that the approving officials were no longer stationed
at Fort Stewart, and that no one knew where the documentation was located.

The Army SOP requires that approving officials maintain records until those
records are transferred to a records holding area. The Army SOP does not
discuss, however, who should maintain the records if the approving official
transfers, deploys, or retires. The Army SOP should be revised to include
guidance for retaining cardholder documentation when the approving officials
transfer, deploy, or leave for any reason.

Navy Retention. Purchase card program officials at Commander Navy Region
Northwest and Naval Medical Center San Diego in most cases did not retain
cardholder documentation on closed accounts. The Navy Instruction states that
Navy activities establishing local purchase card programs must develop internal
operating procedures that include written guidance on maintaining and retaining
purchase card records. However, the internal operating procedures for the
three Navy installations reviewed do not discuss maintaining and retaining
documentation. To validate the accuracy of the credit balances for the three Navy
installations reviewed, we requested billing statements for 54 closed accounts of
purchase cards for the 12 months prior to accounts being closed.

        Commander Navy Region Northwest Cardholder Documentation.
Purchase card program officials at Commander Navy Region Northwest provided
billing statements for 2 of the 19 closed accounts. For the 2 accounts, the
documentation contained all billing statements for the 12 months prior to the
accounts being closed. For 17 of the 19 accounts, the billing statements for all
12 months prior to account closure were unavailable. The Commander Navy
Region Northwest A/OPC stated that CitiBank personnel stated that bank
statements were not available 12 months after account closure.

        Naval District Washington Cardholder Documentation. The Naval
District Washington A/OPC provided billing statements from the CitiBank
automated information system for each of the 24 closed accounts. Because we
did not identify any questionable transactions, no supporting documentation was
requested for further review.

       Naval Medical Center San Diego Cardholder Documentation. The
A/OPC at Naval Medical Center San Diego provided billing statements for all
11 closed accounts from the automated information system. Although we did not
request additional supporting documentation, the A/OPC stated that she could not
provide any transaction supporting documentation for the 11 closed accounts.



                                    9
    Air Force Retention. Purchase card program officials at March ARB and
    Moody AFB did not always retain cardholder documentation on closed accounts.
    AFI 64-117 states that documents the cardholder received or generated supporting
    transactions must be maintained for 3 years after final payment. AFI 64-117
    further states that the approving official must maintain the originals of supporting
    documentation for accounts when the cardholder transfers, is reassigned, retires,
    or when the account is closed. However, the guidance does not specifically
    discuss who maintains the records when approving official accounts are closed.
    To validate credit balances for the two Air Force installations reviewed, we
    requested billing statements for 19 closed accounts of purchase cards for the
    12 months prior to the purchase card accounts being closed. Because we
    identified closed accounts with questionable transactions, we also requested
    supporting documentation for those accounts.

            March ARB Cardholder Documentation. Purchase card program
    officials at March ARB could not locate billing statements for 9 of the 13 closed
    accounts. As a result, we requested cardholder supporting documentation for all
    transactions for the 12 months prior to account closure for all 13 accounts. We
    received documentation for 9 of the 13 accounts and determined all transactions
    reviewed were reasonable and in accordance with guidance. We did not review
    documentation for 4 of the 13 accounts because the A/OPC did not retain the
    documentation.

            Moody AFB Cardholder Documentation. Purchase card program
    officials at Moody AFB could not locate billing statements for two of the
    six closed accounts. We analyzed the available billing statements for the four
    closed accounts. On two of the closed accounts, we did not identify any
    questionable transactions. On one closed account, we identified one purchase
    split between two cardholders. On another, we identified a questionable
    transaction. Therefore, we requested additional supporting documentation for
    those two closed accounts. Moody AFB purchase card program personnel could
    not provide supporting documentation for the account with the split purchase and
    the account with the questionable transaction.

    We could not validate the accuracy of credit balances at the Navy or Air Force
    installations visited or at Fort Carson. In addition, we could not verify that
    selected questionable transactions at the three Army installations visited and
    Moody Air Force Base were not misuses of the purchase card. As a result, Army,
    Navy, and Air Force purchase card program managers should strengthen controls
    for retaining cardholder files.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Director, Army Purchase Card Program
    Management Office:




                                        10
        a. Establish policies and procedures requiring that specific program
officials identify and monitor credits applied to closed accounts until the
credits are properly refunded to the Government.

       b. Establish controls requiring specific program officials identify and
monitor cardholder documentation when cardholders or approving officials
transfer, retire, or deploy.

Management Comments. The Director, Army Purchase Card Program
Management Office did not comment on the recommendations. Therefore, we
request that the Director, Army Purchase Card Program Management Office
provide comments to the final report.

A.2. We recommend that the Director of the Department of the Navy,
Consolidated Card Program Management Division:

        a. Establish policies and procedures requiring that specific program
officials identify and monitor credits applied to closed accounts until the
credits are properly refunded to the Government.

Management Comments. The Chief of Staff/Policy for Deputy Assistant
Secretary of the Navy (Acquisition Management) concurred. He stated the
Department of the Navy, Consolidated Card Program Management Division has
established policy and procedures in Naval Supply Instruction 4200.99, signed
October 13, 2006, for refunding credit balances on closed and inactive accounts
semiannually. Every month, the Department of the Navy, Consolidated Card
Program Management Division sends the Level III A/OPCs a listing of their
current credit balances. The Department of the Navy, Consolidated Card Program
Management Division issued the Purchase Card Administrative Notice on July
21, 2006, requiring activities to address existing credit balances that were 60 days
and older. In August 2006, credit balances totaling more than $900,000 from over
500 accounts were identified for refund. As of October 31, 2006, approximately
$753,000 has been returned to Department of Navy activities as a result of this
new policy.

Audit Response. The comments are responsive, and no additional comments are
required.

        b. Establish policies and procedures requiring that specific program
officials identify and monitor retention of cardholder documentation when
cardholders or approving officials transfer, retire, or deploy.

Management Comments. The Chief of Staff/Policy for Deputy Assistant
Secretary of the Navy (Acquisition Management) concurred and stated Naval
Supply Instruction 4200.99, dated October 13, 2006, states that all files should be
turned in to the A/OPC when a cardholder leaves the command. The A/OPC is
then responsible for retaining the files.

Audit Response. The comments are responsive, and no additional comments are
required.



                                     11
       c. Direct that the agency/organization program coordinator at Naval
District Washington request a refund from Citibank for any outstanding
credit balances on closed accounts.

Management Comments. The Chief of Staff/Policy for Deputy Assistant
Secretary of the Navy (Acquisition Management) concurred and stated that the
Purchase Card Administrative Notice, issued on July 21, 2006, required all
Level III A/OPCs to resolve accounts with credit balances. As of September 21,
2006, Naval District Washington had no closed accounts with a credit balance.

Audit Response. The comments are responsive, and no additional comments are
required.

A.3. We recommend that the Director, Air Force Purchase Card Program
Management Office:

        a. Establish policies and procedures requiring that specific program
officials identify and monitor credits applied to closed accounts until the
credits are properly refunded to the Government.

Management Comments. The Deputy Assistant Secretary (Contracting)/
Assistant Secretary (Acquisition) concurred and stated Air Force Government
Purchase Card Program Management will establish policies and procedures
requiring specific program officials to identify and monitor credits applied to
closed accounts until the credits are properly refunded to the Government. The
Deputy Assistant Secretary (Contracting)/Assistant Secretary (Acquisition) plans
to complete this action by March 30, 2007.

Audit Response. The comments are responsive, and no additional comments are
required.

        b. Establish policies and procedures requiring that specific program
officials identify and monitor retention of cardholder documentation when
cardholders or approving officials transfer, retire, or deploy.

Management Comments. The Deputy Assistant Secretary (Contracting)/
Assistant Secretary (Acquisition) concurred and stated Air Force Government-
Wide Purchase Card Program Instruction (AFI 64-117) provides guidance for
retaining documentation when cardholders retire or are reassigned or separated.
The Air Force will establish additional policy to identify and monitor retention of
cardholder documentation when approving officials transfer, retire, or deploy.
The Deputy Assistant Secretary (Contracting)/Assistant Secretary (Acquisition)
plans to complete this action by March 30, 2007.
Audit Response. The comments are responsive, and no additional comments are
required.




                                    12
           B. Convenience Checks
           Controls over the use of convenience checks were weak and program
           officials did not establish an effective oversight program at Army, Navy,
           and Air Force installations visited. Specifically,

                  •   Army, Navy, and Air Force A/OPCs did not issue delegation of
                      authority letters to convenience check writers;

                  •   Army, Navy, and Air Force officials did not review the
                      program, nor did they conduct unannounced audits of
                      convenience check accounts; and

                  •   Army and Air Force approving officials did not retain
                      documentation when checks were used.

           These conditions occurred because program management officials for
           purchase cards did not implement policies and procedures for convenience
           checks, including maintenance and use of check accounts, and retention of
           documentation. As a result, convenience checks were vulnerable to fraud,
           waste, and abuse. Unless controls for purchase cards are strengthened and
           management engages in proactive oversight, the Army, Navy, and Air
           Force cannot continuously improve the program or mitigate the fraud,
           waste, or mismanagement.


Convenience Checks Review
    The 36 authorized check writers at 3 Army, 2 Navy, and 2 Air Force installations
    wrote 1,694 convenience checks, valued at $993,252, from October 1, 2003,
    through April 30, 2005.

    Army Convenience Checks. The 9 authorized check writers at Fort Carson, Fort
    McPherson, and Fort Stewart wrote 581 convenience checks, valued at $380,949,
    from October 1, 2003, through April 30, 2005. Specifically,

           •   6 check writers at Fort Carson wrote 299 checks, valued at $164,928;

           •   2 check writers at Fort McPherson wrote 154 checks, valued at
               $106,489; and

           •   1 check writer at Fort Stewart wrote 128 checks, valued at $109,532.

    Navy Convenience Checks. The 5 authorized check writers at Commander
    Navy Region Northwest and Naval Medical Center San Diego wrote
    203 convenience checks, valued at $108,203, from October 1, 2003, through
    April 30, 2005. Specifically,

           •   3 check writers at Commander Navy Region Northwest wrote
               115 convenience checks, valued at $61,985; and


                                       13
                   •   2 check writers at Naval Medical Center San Diego wrote
                       88 convenience checks, valued at $46,218.

          Naval District Washington did not have a convenience check account and did not
          plan to establish an account.

          Air Force Convenience Checks. The 22 authorized check writers at March ARB
          and Moody AFB wrote 910 convenience checks, valued at $504,100, from
          October 1, 2003, through April 30, 2005. Specifically,

                   •   6 check writers at March ARB wrote 274 convenience checks, valued
                       at $97,087, from 9 accounts; 5 and

                   •   16 check writers at Moody AFB wrote 636 convenience checks,
                       valued at $407,013, from 21 accounts.


Check Writing Authority
          Army, Navy, and Air Force controls over the use of convenience checks did not
          require that A/OPCs issue delegation of authority letters to authorized
          convenience check writers. Controls did not exist because program management
          officials for purchase cards at three Army, two Navy, and two Air Force
          installations did not implement policies and procedures for convenience checks.
          DoD Financial Management Regulation 7000.14-R, volume 5, chapter 2, section
          0210, “Convenience Checks,” states that the activity commander or director must
          issue delegations of authority to the check writer and approving official in
          writing.

          Army Check Writer Authority. The Army Federal Acquisition Regulation
          Supplement states that the chiefs of contracting offices issue delegations of
          authority to cardholders. The Army SOP directs that A/OPCs issue delegation of
          authority letters to cardholders. The Fort Carson A/OPC did not issue delegation
          of authority letters to any of the six check writers reviewed. After we announced
          our review, the Fort McPherson chief of contracting issued delegation of authority
          letters to two check writers, and the Fort Stewart chief of contracting issued a
          delegation of authority to one check writer. Check writers without proper
          delegation of authority may not be held pecuniarily liable for payments made
          using the convenience checks.

          Navy Check Writer Authority. The Navy Instruction states that an activity
          commander or director who is authorized to establish the account should issue
          delegations of authority in writing. The A/OPC did not know whether a
          delegation of authority letter had been issued to one of the three check writers in

5
    The nine convenience check accounts at March ARB were managed by six check writers and overseen by
    three A/OPCs at different Major Commands. One check writer was accountable to the Air Force Audit
    Agency A/OPC at Bolling AFB; two check writers were accountable to the Air Force Materiel Command
    A/OPC at Edwards AFB; and three check writers were accountable to the Air Force Reserve Command
    A/OPC at March ARB.



                                                   14
    accordance with DoD and Navy guidance because the cardholder file did not
    contain a copy of the delegation of authority letter.

    The Commander at Naval Medical Center San Diego issued delegation of
    authority letters to both check writers in accordance with DoD and Navy
    guidance.

    Air Force Check Writer Authority. A/OPCs at Air Force installations did not
    issue delegation of authority letters to 8 of the 22 convenience check writers at
    March ARB and Moody AFB. AFI 64-117 states that the A/OPC should issue
    delegations of authority to cardholders. The instruction directs that the
    commander or chief of the base contracting office must sign the letter. Two
    check writers at March ARB were accountable to the Air Force Materiel
    Command A/OPC located at Edwards AFB, California. The A/OPC at Edwards
    AFB did not issue delegation of authority letters to the check writers. Another
    check writer at March ARB was accountable to the Air Force Audit Agency
    A/OPC located at Bolling AFB. The A/OPC at Bolling AFB did not issue a
    delegation of authority letter to the check writer. The A/OPC at Moody AFB did
    not issue delegation of authority letters to 5 check writers.

    The Army, Navy, and Air Force should strengthen controls over delegation of
    authority for convenience checks and for overseeing use of the checks. Check
    writers without the required delegation of authority may not be held pecuniarily
    liable for payments made using the convenience checks.


Periodic Reviews of Convenience Checks
    Army, Navy, and Air Force program management officials for purchase cards did
    not implement existing policies and establish procedures for reviewing and
    auditing convenience check accounts. DoD Financial Management
    Regulation 7000.14-R, volume 5, chapter 2, section 0210, “Convenience Checks,”
    states that an officer or equivalent DoD civilian employee who is independent of
    the office maintaining the account must annually conduct an unannounced audit
    of each convenience check account.

    Army Reviews. Army A/OPCs did not regularly review transactions for the
    convenience check accounts at Fort Carson, Fort McPherson, and Fort Stewart,
    and they did not ensure convenience check accounts were audited quarterly as
    Army guidance requires.

           Transaction Reviews. The Army SOP states that the A/OPCs must
    review convenience check transactions to ensure program officials are complying
    with regulations. However, the A/OPCs did not perform reviews of convenience
    check transactions for the six check writers at Fort Carson, two check writers at
    Fort McPherson, and one check writer at Fort Stewart. The A/OPC at Fort
    Carson stated that she did not review convenience check transactions because the
    check writer was located in the Directorate of Contracting, and she stated she felt
    it would be a conflict of interest if she reviewed the account. The A/OPC at Fort
    McPherson stated that she reviewed the primary check writer’s account a few


                                        15
months before our audit was announced, but stated that she does not regularly
monitor convenience check transactions. The Fort Stewart A/OPC acknowledged
that convenience check accounts were supposed to be reviewed, but she has never
reviewed the account.

        Convenience Check Account Reviews. A/OPCs at Army installations
did not ensure convenience check accounts were audited quarterly as required.
The Army SOP states that convenience check accounts must be audited quarterly
in accordance with the Army Federal Acquisition Regulation Supplement
5113.270(a). The Army Federal Acquisition Regulation Supplement 5113.270(a)
states that a duly appointed, disinterested third party under the guidance of the
local Internal Review activity must audit the convenience check accounts. The
local Internal Review activities did not conduct quarterly audits for the
nine convenience check accounts at Fort Carson, Fort McPherson, and Fort
Stewart.

       The Chief of Internal Review at Fort Carson stated that the FY 2001
review indicated good management controls were in place, and the risk factor of
the convenience check program was considered low. The Chief of Internal
Review stated that convenience check audits were in the annual Internal Review
Plan until creation of the Army Contracting Agency. The audits were deferred to
perform other audits with higher risk. The Chief stated that changes made in the
Army Federal Acquisition Regulation Supplement, which requires quarterly
auditing of convenience check accounts, should have been coordinated with
Headquarters Department of the Army Internal Review to include requirements in
Army Regulation 11-7, “Internal Review.”

       The Chief of Internal Review at Fort McPherson stated that because the
Army Contracting Agency was a separate agency, the Internal Review Office for
the U.S. Army Forces Command did not have purview over the purchase card
program and its management of the program, including convenience checks. The
Chief stated that the Army Contracting Agency must request an outside Internal
Review function to perform required reviews of convenience checks.

       The Chief of Internal Review at Fort Stewart stated that he was aware of
the requirement to review convenience check accounts quarterly, but he had not
done any formal quarterly audits of the convenience check account selected for
review because his office was understaffed.

       A/OPCs are responsible for managing the purchase card program and
should have performed the required surveillance reviews and audits.

Navy Reviews. The A/OPC at Commander Navy Region Northwest did not
ensure convenience check accounts were audited annually as DoD and Navy
guidance require. The Navy Instruction states that an officer or DoD civilian
independent of the office maintaining the convenience check account must
annually conduct an unannounced audit of the accounts. In February 2004 and
again in March 2006, the Fleet and Industrial Supply Center, Procurement
Management Branch, reviewed the purchase card program at Commander Navy
Region Northwest. The reviews included assessment of the convenience checks.



                                   16
Although the Navy reviewed the program, the reviews did not meet the annual
requirement.

The A/OPC at Naval Medical Center San Diego did not ensure convenience
check accounts were audited annually as DoD and Navy guidance require.
Command Evaluation and Integrity performed unannounced audits of the
convenience check accounts at Naval Medical Center San Diego in both
February 2003 and January 2005. The reviews assessed the convenience checks;
but like those at Navy Region Northwest, these reviews did not meet the annual
requirements.

Air Force Reviews. A/OPCs at Air Force installations did not annually review
convenience check accounts or audit convenience check accounts as DoD
Financial Management Regulation requires. In addition, approving officials did
not perform quarterly surveillance reviews of each account.

        Annual Surveillance Reviews. AFI 64-117 requires that as a part of the
annual surveillance of accounts A/OPCs review each convenience check account
under an approving official. The A/OPCs did not perform the required reviews
for 3 of the 6 check writers at March ARB and 10 of the 16 check writers at
Moody AFB.

        Quarterly Approving Official Reviews. AFI 64-117 states the
approving official must conduct quarterly reviews of each check account as a part
of the regular surveillance activities. The approving officials did not conduct
reviews of convenience check accounts quarterly for 5 of the 6 check writers at
March ARB and 10 of the 16 check writers at Moody AFB.

        Annual Convenience Check Account Reviews. A/OPCs at Air Force
installations did not ensure convenience checks were audited annually, on an
unannounced basis, as required by the DoD Financial Management Regulation.
The A/OPCs at March ARB and Moody AFB were unaware of the requirement
for unannounced audits of convenience check accounts. Therefore, no
independent unannounced audits were performed on the convenience check
accounts reviewed at March ARB and Moody AFB.

The DoD Financial Management Regulation does not specify the independent
office responsible for performing the annual audits of convenience check
accounts. However, as part of the daily management of the purchase card
program, the A/OPC should ensure that convenience check account audits are
performed. Because these audits were not performed, convenience checks are
vulnerable to unnecessary risk and misuse. Unless purchase card controls are
strengthened and management engages in proactive oversight, the Army, Navy,
and Air Force cannot ensure the continuous program improvement and risk
mitigation necessary to prevent fraud, waste, or mismanagement.




                                   17
Retaining Documentation
    An Army approving official at Fort McPherson and Air Force approving officials
    at March ARB and Moody AFB did not retain check writer documentation. This
    occurred because program management officials for purchase cards did not
    implement existing policies and procedures for retaining documentation.

    Program officials for Commander Navy Region Northwest and Naval Medical
    Center San Diego purchase cards properly retained files and documentation for
    convenience check writers and the transactions.

    Army Retention. A Fort McPherson approving official did not retain check
    writer documentation. The Army SOP requires that certified billing statements
    and supporting documentation must be retained for 6 years and 3 months after
    final payment. The Army SOP also requires the approving official to maintain
    the records until they are transferred to a records holding area. Fort McPherson
    personnel destroyed supporting documentation for FY 2003 convenience check
    transactions for one check writer. The check writer stated that another employee
    who believed the records were no longer required destroyed the check writer’s
    records. Because those records were destroyed, we were unable to review three
    of the eight convenience checks issued by the check writer.

    Air Force Retention. Approving officials at March ARB and Moody AFB did
    not retain check writer documentation. AFI 64-117 requires that the check writer
    maintain transaction files and documentation for three years after final payment.
    AFI 64-117 also requires that the approving official must maintain the originals of
    the documentation for accounts when the check writer transfers, is reassigned, or
    retires, or when the account is closed. Approving officials did not retain
    supporting documentation for 1 of the 6 convenience check writers at
    March ARB, and 3 of the 16 convenience check writers at Moody AFB. Because
    the approving officials did not retain supporting documentation as required, we
    were unable to review 62 of the 910 convenience checks issued at March ARB
    and Moody AFB.
    Army and Air Force program managers for purchase cards should strengthen
    controls for retaining the required documentation.


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Director, Army Purchase Card Program
    Management Office, establish controls that require:

          a. Delegation of authority letters before convenience check writers
    can write checks.

           b. Periodic reviews of convenience check transactions.



                                        18
      c. Proper retention of documentation in accordance with the Army
Standing Operating Procedures.

Management Comments. The Director, Army Purchase Card Program
Management Office did not comment on the recommendations. Therefore, we
request that the Director, Army Purchase Card Program Management Office
provide comments to the final report.

B.2. We recommend that the Director of the Department of the Navy,
Consolidated Card Program Management Division, establish controls that
require:

      a. Delegation of authority letters before convenience check writers
can write checks.

Management Comments. The Chief of Staff/Policy for Deputy Assistant
Secretary of the Navy (Acquisition Management) concurred. Naval Supply
Systems Command issued Naval Supply Instruction 4200.99, dated October 13,
2006, which required that delegations of authority to maintain and use
convenience checks be issued in writing specifically to the activity approving
official, check custodian, and convenience check writer by the activity
commander or director who is authorized to establish the account.

Audit Response. The comments are responsive, and no additional comments are
required.

       b. Periodic reviews of convenience check transactions.

Management Comments. The Chief of Staff/Policy for Deputy Assistant
Secretary of the Navy (Acquisition Management) concurred. Naval Supply
Instruction 4200.99, dated October 13, 2006, states that an officer or equivalent
DoD civilian who is independent of the office maintaining the account must
annually conduct unannounced audits of convenience check accounts.

Audit Response. The comments are responsive, and no additional comments are
required.

B.3. We recommend that the Director, Air Force Purchase Card Program
Management Office, establish controls that require:

      a. Delegation of authority letters before convenience check writers
can write checks.

Management Comments. The Deputy Assistant Secretary (Contracting)/
Assistant Secretary (Acquisition) concurred. AFI 64-117 provides guidance for
establishing convenience check accounts, which requires a letter of appointment
to maintain the use of convenience checks. However, the Air Force GPC
Program Management Office will establish controls to improve compliance and
obtain coordination from the DoD Purchase Card Program Management Office.
The Deputy Assistant Secretary (Contracting)/Assistant Secretary (Acquisition)
plans to complete this action by March 30, 2007.


                                    19
Audit Response. The comments are responsive, and no additional comments are
required.

       b. Periodic reviews of convenience check transactions.

Management Comments. The Deputy Assistant Secretary (Contracting)/
Assistant Secretary (Acquisition) concurred and stated AFI 64-117 provides
guidance for establishing convenience check accounts, which requires
surveillance of check writer accounts. However, the Air Force GPC Program
Management will establish controls to improve compliance and obtain
coordination from the DoD Purchase Card Program Management Office. The
Deputy Assistant Secretary (Contracting)/Assistant Secretary (Acquisition) plans
to complete this action by March 30, 2007.

Audit Response. The comments are responsive, and no additional comments are
required.

       c. Proper retention of documentation in accordance with the Air
Force Instruction 64-117.

Management Comments. The Deputy Assistant Secretary (Contracting)/
Assistant Secretary (Acquisition) concurred and stated AFI 64-117 provides
guidance for establishing convenience check accounts, which requires proper
retention of documentation. However, the Air Force GPC Program Management
Office will establish controls to improve compliance and obtain coordination
from the DoD Purchase Card Joint Program Management Office. The Deputy
Assistant Secretary (Contracting)/Assistant Secretary (Acquisition) plans to
complete this action by March 30, 2007.

Audit Response. The comments are responsive, and no additional comments are
required.




                                   20
                    C. Purchase Card Program Controls
                    Controls over the purchase card programs at Air Force installations visited
                    were inadequate, and program oversight was weak. 6 In addition, controls
                    over purchase card program training at two of the three Navy installations
                    visited were weak. Specifically,

                             •    40 of the 159 Navy and Air Force cardholders and 39 of the
                                  135 Navy and Air Force approving officials reviewed did not
                                  receive the initial purchase card training or the refresher
                                  purchase card training; 7

                             •    A/OPCs at March ARB and Bolling AFB8 had more than the
                                  standard span of control for purchase card accounts;

                             •    of the approving officials reviewed, 35 Air Force approving
                                  officials had more than the standard cardholder to approving
                                  official ratio; and

                             •    the primary and alternate A/OPCs at March ARB were both
                                  purchase cardholders and convenience check writers.

                    Control weaknesses occurred because Navy and Air Force purchase card
                    managers did not effectively implement purchase card program guidance
                    for cardholder training, and Air Force purchase card managers did not
                    effectively manage approving official span of control. Unless purchase
                    card program management officials strengthen internal controls and
                    program oversight, the Navy and Air Force cannot continuously improve
                    the purchase card program and mitigate the risk of fraud, waste, or
                    mismanagement.


Purchase Card Program Controls and Oversight
           Controls over the purchase card programs at Air Force installations visited were
           inadequate, and program oversight was weak. In addition, controls over purchase
           card program training at two of the three Navy installations visited was weak.
           Those conditions occurred because Navy and Air Force program management
           officials for purchase cards did not effectively implement guidance for cardholder
           training, and Air Force program management officials did not effectively manage
           the span of control over purchase card accounts.

6
    Army purchase card program controls were discussed in DoD IG Report No. D-2006-099, “Purchase
    Card Program Controls at Selected Army Locations,” July 21, 2006.
7
    Because of the high number of cardholders and approving officials at each installation, we judgmentally
    selected 10 percent of all cardholders and approving officials at each Navy and Air Force installation, and
    reviewed training files to determine whether purchase card training was completed.
8
    Air Force Audit Agency had one check writer at March ARB who was accountable to an A/OPC located
    at Bolling AFB. As a result, we audited the A/OPC program controls at Bolling AFB.



                                                       21
Purchase Card Training. Navy Instruction requires that cardholders and
approving officials complete local, Navy, and DoD purchase card training before
delegation as a program participant. The Navy Instruction also requires that
cardholders and approving officials complete refresher training on local and Navy
purchase card policies and procedures every 2 years. However, of the
37 cardholders and 20 approving officials at the 3 Navy installations reviewed,
21 cardholders and 9 approving officials did not receive the required refresher
purchase card training. Specifically, 5 cardholders and 4 approving officials at
Naval District Washington, and 16 cardholders and 5 approving officials at Naval
Medical Center San Diego did not complete the required training. All
cardholders and approving officials at Commander Navy Region Northwest
completed the required refresher training.

AFI 64-117 requires the A/OPC to provide training to cardholders and approving
officials. The guidance requires program participants to complete training on the
purchase card program before being delegated authority. However, of the 122 Air
Force cardholders reviewed, 19 did not receive the required initial purchase card
training. Specifically, 13 of the 45 cardholders at Bolling AFB, 1 of the
26 cardholders at Edwards AFB, and 5 of the 28 cardholders at Moody AFB did
not receive initial purchase card training. All cardholders at March ARB received
initial purchase card training.

Of the 115 Air Force approving officials reviewed, 28 did not receive initial
purchase card training. Specifically, 16 of the 42 approving officials at
Bolling AFB, 3 of the 25 approving officials at Edwards AFB, 1 of the
22 approving officials at March ARB, and 8 of the 26 approving officials at
Moody AFB did not receive initial purchase card training as required.

Agency/Organization Program Coordinator Span of Control. AFI 64-117
does not discuss the A/OPC span of control. However, the DoD Charge Card
Guidebook states that each A/OPC should have no more than 300 accounts,
including cardholder and approving official accounts. Such a ratio allows the
A/OPCs to effectively accomplish their responsibilities. The A/OPC span of
control at March ARB and Bolling AFB exceeded the guidance of 300 to 1.
Specifically, the March ARB A/OPC had 327 purchase card accounts. Although
an alternate A/OPC was appointed, she did not assist with the daily operations of
the purchase card program. The Bolling AFB A/OPC was responsible for
894 purchase card accounts. Although the Bolling AFB had two alternates,
purchase card responsibilities were only 50 percent of their duties.

Approving Official Span of Control. AFI 64-117 requires a standard span of
control of not more than seven cardholders per approving official or a written
justification for approving officials with more than seven cardholders assigned.
At the sites reviewed, 35 Air Force approving officials exceeded the Air Force
standard ratio of 7 to 1. Specifically, 15 approving officials at Bolling AFB, 3
approving officials at Edwards AFB, 6 approving officials at March ARB, and 11
approving officials at Moody AFB had more than seven cardholders. In addition,
the approving officials did not have written justification to specify how they were
able to maintain appropriate oversight as required.




                                    22
     Approving officials with an unreasonable number of cardholders assigned to their
     accounts may not promptly or properly review and certify monthly billing
     statements for cardholders. A ratio that is too great decreases the ability for
     approving officials to effectively manage assigned cardholders. The total number
     of transactions, as well as the number of assigned cardholders, must be considered
     when determining an acceptable ratio of cardholders to approving officials.


Separation of Duties
     The primary and alternate A/OPCs at March ARB were both purchase
     cardholders and convenience check writers. AFI 64-117 requires that A/OPCs
     initiate accounts, issue delegation of contracting authority, and provide training
     and business advice to approving officials, cardholders, and check writers. As a
     result, significant concerns about separation of duties arise when an A/OPC both
     performs and oversees execution of cardholder and check writer duties. In
     addition, the former chief of the operational contracting office at March ARB was
     the delegating official for program participants of purchase cards and also
     delegated convenience check writer authority. As a result, the chief delegated
     Government purchase card authority to herself. The practice was a conflict of
     interest.


Recommendations, Management Comments, and Audit
  Response
     C.1. We recommend that the Director of the Department of the Navy,
     Consolidated Card Program Management Division, establish controls
     requiring that cardholders and approving officials receive purchase card
     training.

     Management Comments. The Chief of Staff/Policy for Deputy Assistant
     Secretary of the Navy (Acquisition Management) concurred and stated that Naval
     Supply Instruction 4200.99, dated October 13, 2006, states the head of an activity
     will ensure that all program participants have received the required training in
     accordance with DoD and Department of Navy policy and procedures;
     documentation of training must be maintained by the A/OPC for the duration the
     participant serves in this capacity and for 3 years beyond; and the Level V A/OPC
     must establish an individual file for each approving official and cardholder. Also,
     as part of the Department of Navy purchase card semiannual review, A/OPCs are
     required to review compliance with training requirements and report findings to
     the Head of the Activity.

     Audit Response. The comments are responsive, and no additional comments are
     required.

     C.2. We recommend that the Director, Air Force Purchase Card Program
     Management Office, establish controls requiring that:



                                         23
       a. Cardholders and approving officials receive purchase card
training.

Management Comments. The Deputy Assistant Secretary (Contracting)/
Assistant Secretary (Acquisition) concurred and stated AFI 64-117 provides
guidelines on mandatory initial training and refresher training requirements for
cardholders, approving officials, and A/OPCs. In response to DoD Purchase Card
Program Management Office policy, dated August 22, 2006, which extended the
mandatory refresher training requirement to A/OPCs and certifying officials, the
Air Force is in the process of establishing policy to meet the requirement with an
estimated completion date of March 30, 2007.

Audit Response. The comments are responsive, and no additional comments are
required.

       b. Agency/organization program coordinator and approving official
span of control is reduced to a manageable level.

Management Comments. The Deputy Assistant Secretary (Contracting)/
Assistant Secretary (Acquisition) concurred. He stated the Air Force GPC
program coordinator is currently conducting a review of all GPC span of control
waivers granted to each Major Command. Reviewers will ensure the ratio of
cardholders to approving officials and A/OPCs to cardholders and approving
officials are reduced to manageable levels. All waivers for the 7 to 1 span of
control ratio are now issued as individual waivers, applicable only to the
individual name on the waiver. Waivers will also be reviewed annually on the
anniversary date of the waiver.

Audit Response. The comments are responsive, and no additional comments are
required.

       c. Purchase card program officials responsible for managing or
overseeing the purchase card program are not delegated authority as a
cardholder or check writer.

Management Comments. The Deputy Assistant Secretary (Contracting)/
Assistant Secretary (Acquisition) concurred. He stated Air Force GPC program
management will work with DoD Purchase Card Program Management Office to
establish guidance and policy that prohibits program officials who are responsible
for managing or overseeing the purchase card program from being delegated
authority as cardholders or check writers. The Deputy Assistant Secretary
(Contracting)/Assistant Secretary (Acquisition) plans to complete this action by
January 2007.

Audit Response. The comments are responsive, and no additional comments are
required.




                                    24
Appendix A. Scope and Methodology
   We reviewed purchase card program controls at three Army installations: Fort
   Carson, Fort McPherson, and Fort Stewart; three Navy installations: Commander
   Navy Region Northwest, Naval District Washington, and Navy Medical Center
   San Diego; and two Air Force installations: March ARB and Moody AFB. We
   analyzed data provided by the DoD Inspector General Data Mining Division on
   closed accounts of purchase cards with credit balances, as of May 2 and June 15,
   2005, and judgmentally selected the installations to be visited based on:

          •   high number of closed accounts of purchase cards with a credit
              balance,

          •   high credit balances,

          •   questionable card status (that is, temporarily closed), and

          •   closed accounts containing a credit balance since FY 2004.

   At each Army installation visited, we reviewed controls over closed accounts of
   purchase cards with credit balances and convenience check accounts. We
   reviewed controls over these types of accounts and other program controls at the
   Navy and Air Force installations visited. (We did not review overall Army
   purchase card program controls. We discussed Army purchase card program
   controls in DoD OIG Report Number D-2006-099, “Purchase Card Program
   Controls at Selected Army Locations,” July 21, 2006.)

   For the closed purchase card accounts, we requested billing statements during the
   12-month period preceding the date of closure and reviewed any available billing
   statements provided. In addition, we reviewed supporting documents for
   questionable transactions we identified as a result of our review. For the
   convenience check accounts, we reviewed billing statements, check logs, carbon
   copies, and supporting documentation for checks issued from October 1, 2003,
   through April 30, 2005, at seven of the eight installations. We also reviewed the
   purchase card programs at Bolling AFB and Edwards AFB based on our review
   of the convenience check accounts at March ARB. For controls over the purchase
   card programs, we reviewed listings of cardholders and approving officials,
   training files, and account reviews. We interviewed key purchase card program
   personnel from U.S. Bank, Citibank, the Purchase Card Program Management
   Offices, and each Army, Navy, and Air Force installation visited.
   We performed this audit from June 2005 through January 2007 in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We relied on computer-processed data from
   U.S. Bank and Citibank, which was provided by the Defense Manpower Data
   Center. We did not perform a formal reliability assessment of the
   computer-processed data. However, we were able to establish data reliability for
   the information by comparing convenience check and purchase card transaction
   data with source documentation. We did not find material errors that would


                                       25
preclude the use of computer-processed data to meet the audit objective or that
would change the conclusion of this report.

Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the DoD Contract Management high-risk area.




                                    26
Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, Army Audit Agency (AAA), Naval Audit
    Service, and Air Force Audit Agency (AFAA) issued 194 reports on Government
    purchase cards, in general. Of those reports, 18 specifically discuss the purchase
    card program or convenience checks Service-wide or at the locations we visited.
    None of the reports discuss credit balances on closed accounts. Additionally,
    none of the audit reports on purchase cards issued by the Naval Audit Service
    discuss convenience checks, credit balances on closed accounts throughout the
    Navy, or the purchase card program at the three Navy locations visited.
    Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-04-156, “Purchase Cards: Steps Taken to Improve DoD
    Program Management, but Actions Needed to Address Misuse,” December 2,
    2003

    GAO Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave the
    Air Force Vulnerable to Fraud, Waste, and Abuse,” December 20, 2002

    GAO Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave
    Army Vulnerable to Fraud, Waste, and Abuse,” June 27, 2002


DoD IG
    DoD IG Report No. D-2006-099, “Purchase Card Program Controls at Selected
    Army Locations,” July 21, 2006
    DoD IG Report No. D-2005-055, “DoD Purchase Card Convenience Checks,”
    May 3, 2005

    DoD IG Report No. D-2002-075, “Controls Over the DoD Purchase Card
    Program,” March 29, 2002


Army
    AAA Report No. A-2005-0308-ALA, “Army Government Purchase Card
    Program, Fort Stewart, Georgia,” September 21, 2005




                                        27
    AAA Report No. A-2005-0199-ALA, “The Army's Purchase Card Program
    Aviation Division, Fort Stewart/Hunter Army Airfield, Georgia,” June 13, 2005

    AAA Report No. A-2005-0120-ALA, “Data-Mining Techniques for Purchase
    Card Oversight,” February 24, 2005 (For Official Use Only)


Air Force
    AFAA Report No. F2004-0007-FC3000, “Air Force Government Purchase Card
    Internal Controls,” September 9, 2004

    AFAA Report No. F2004-0031-FCI000, “Government Purchase Card, 452nd Air
    Mobility Wing, March Air Joint Reserve Base CA,” March 9, 2004

    AFAA Report No. F2004-0030-FCI000, “Government-Wide Purchase Card,
    362nd Recruiting Squadron, March Joint Air Reserve Base CA,” March 9, 2004

    AFAA Report No. F2004-0029-FCI000, “Government-Wide Purchase Card,
    4th Air Force, March Air Reserve Base CA,” March 5, 2004

    AFAA Report No. F2003-0002-FC3000, “Memorandum Report, Joint Purchase
    Card Project - Air Force,” December 2, 2002

    AFAA Report No. F2002-0006-C06400, “Air Force Purchase Card Program,”
    August 6, 2002

    AFAA Report No. F2002-0007-DD0000, “Air Force Purchase Card Program, Air
    Force Flight Test Center, Edwards AFB CA,” June 18, 2002

    AFAA Report No. F2002-0005-DD0000, “Air Force Purchase Card Program, Air
    Force Flight Test Center, Edwards AFB CA,” January 31, 2002
    AFAA Report No. F2002-0032-EL0000, “Air Force Purchase Card Program,
    347th Rescue Wing, Moody AFB GA,” January 2, 2002




                                      28
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
     Director, Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Director, Army Purchase Card Program Management Office

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director of the Department of the Navy, Consolidated Card Program Management
   Division

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force for Acquisition
  Director, Director, Air Force Purchase Card Program Management Office
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information, Intergovernmental Relations, and the
  Census, Committee on Government Reform




                                        30
Under Secretary of Defense for Acquisition,
Logistics, and Technology Comments




                       31
Department of the Navy Comments




                    32
33
34
35
36
37
38
Department of the Air Force Comments




                     39
Final Report
 Reference




                 1




                 1




1
    In an e-mail dated January 3, 2007, the Air Force Purchase Card Joint Program Management Office changed the estimated completion date to March 30, 2007


                                                                                  40
                                                                                                                                                     Final Report
                                                                                                                                                      Reference




                                                                                                                                                    2




                                                                                                                                                    2




                                                                                                                                                    2




2
    In an e-mail dated January 3, 2007, the Air Force Purchase Card Joint Program Management Office changed the estimated completion date to March 30, 2007


                                                                                  41
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Carros
Arsenio M. Sebastian
Gloria A. Young
Kevin A. Palmer
Chad J. Evans
Amie M. Hall
LeBarron A. Durant
Judy M. Chun
Jennifer L. Seighman
Erin M. Grates
Sharon L. Carvalho
Jillisa H. Milner
